November 5, 2020
Via Electronic Filing and E-mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
RE: Immigration and Customs Enforcement (“ICE”), et al., v. Padilla, et al., No. 20-234
Dear Mr. Harris:
Respondents write to request an additional 30-day extension of time to file a brief in opposition
to the petition for writ of certiorari in ICE v. Padilla, No. 20-234. Specifically, Respondents seek
to extend their response time from November 23, 2020, to December 23, 2020. Respondents seek
this extension in light of counsel’s substantial obligations in November; these obligations are
further complicated by the current public health emergency related to COVID-19, which has
forced the closure of each of the offices where Respondents’ counsel normally work. In addition,
the pandemic has forced closures of schools, camps, and child care facilities, which require
Respondents’ counsel to care for minor children during this time.
This month, Counsel for Respondents is responsible for the following substantive briefing
deadlines and hearings:
November 4, 2020, Opposition and reply on cross-motions for summary judgment on behalf of
two certified nationwide classes addressing FOIA production of A-files in Nightingale v. U.S.
Citizenship and Immigration Serv., No. 19-cv-03512-WHO (N.D. Cal.);
November 4, 2020, Fairness Hearing to review settlement on behalf of two certified nationwide
classes and four subclasses addressing mechanisms to implement permanent injunction with
respect to processing asylum claims in Mendez Rojas v. Wolf, No. 16-cv-01024-RSM (W.D.
Wash.);
November 4, 2020, Amended complaint and second motion for class certification on behalf of
medically vulnerable detainees at Northwest Detention Center in Castaneda Juarez v. Asher, 20cv-0700-JLR-MLP (W.D. Wash.);
November 5, 2020, Supplemental brief on relief, Malam v. Adducci, 5:20-cv-10829-JEL-APP
(E.D. Mi.);

November 6, 2020, Reply in support of motion for preliminary injunction, Make the Road New
York v. Wolf, No. 1:19-cv-02369-KBJ (D.D.C.);
November 13, 2020, Hearing on motion for preliminary injunction, Make the Road New York v.
Wolf, No. 1:19-cv-02369-KBJ (D.D.C.);
November 13, 2020, Reply in support of individual class members’ petition for writ of habeas
corpus, Thakker et al v. Doll, 1:20-cv-00480-JEJ-MCC (M.D. Pa.);
November 18, 2020, Arguments on petition for review in Koon Wai You v. Barr, No. 19-73310
(9th Cir.);
November 19, 2020, Plaintiffs’ motion for summary judgment on behalf of two certified
nationwide classes challenging, inter alia, use of Controlled Application Review and Resolution
Program (CARRP) in adjudicating adjustment and naturalization applications in Wagafe v.
Trump; No. 17-cv-094-RAJ (W.D. Wash.);
November 23, 2020, Opening brief in Estrada-Mendoza v. Barr, No. 19-72878 (9th Cir.);
November 24, 2020, Opening brief and appendix due in James v. Barr, No. 20-1666 (1st Cir.);
November 27, 2020, Reply in support of individual class member’s petition for writ of habeas
corpus, Thakker et al v. Doll, 1:20-cv-00480-JEJ-MCC (M.D. Pa.); and
November 30, 2020, Responsive brief in support of habeas and mandamus claims in Cristobal v.
Asher, No. 20-cv-01493-RSM-BAT (W.D. Wash.).
Petitioners through counsel have indicated they object to the proposed extension to December
23, but would not object to a shorter extension to December 2.
Thank you for your time and consideration in this matter.
Sincerely,

Matt Adams
Counsel for Respondents
matt@nwirp.org
cc:

Jeffrey B. Wall, Counsel for Petitioners
Vivek Suri, Counsel for Petitioners

